HHS/OIG, Audit -"Excessive Payments for Outpatient Services Processed by Mutual
of Omaha,"(A-01-05-00514)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Excessive Payments for Outpatient
Services Processed by Mutual of Omaha," (A-01-05-00514)
May 31, 2006
Complete
Text of Report is available in PDF format (517 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether high-dollar Medicare payments that Mutual of Omaha
made to providers for outpatient services were appropriate.  Some of the high-dollar
Medicare outpatient payments were not appropriate.  During calendar year 2003, Mutual
of Omaha made 54 payments of $50,000 or more each for outpatient services. At the start of
our fieldwork in April 2005: (a) 9 of the payments were correct; (b) 17 of the payments were
incorrect, and the providers had refunded $5,466,816 in overpayments; and, (c) 28 of the
payments were incorrect, and the providers had not refunded $2,808,384 in associated overpayments.  Contrary
to Federal guidance, the providers in all 45 (17 plus 28) instances inappropriately overstated
the units of service.
We recommended that Mutual of Omaha: (1) inform us of the status of the recovery of the
$2,808,384 in overpayments that our audit identified, (2) identify and recover additional
overpayments made on high-dollar outpatient claims paid after calendar year 2003, and (3)
use the results of this audit in its provider education activities.  Mutual of Omaha
agreed with our recommendations.